No. 20-278

IN THE
SUPREME COURT OF THE UNITED STATES

Marguerite Smith,
Petitioner,
v.
Secretary of Veterans Affairs, et al.
Respondents.

On Petition For Writ Of Certiorari
To The United States Court of Appeals
For The Eleventh Circuit

AMENDED PETITION FOR REHEARING

Marguerite Smith, Self-represented
10522 Maidstone Cove Drive
Jacksonville, FL 32218
(904) 609-5779

RULE 44 PETITION FOR REHEARING
This Court shall reverse a state court ruling denying inheritance on the grounds of
substantive and procedural due process. Also the court must not over-look the allegations as
to establish the truth examining the facts of Administrative Order No. 2018-02 indicating
Marguerite Smith as a vexatious litigant of material facts to FRCP 62.1 infringed on her fifth
& fourteenth amendment of the United States Constitution.
Pro-Se, appellant Marguerite Smith, want this Court to note that appellant never waived
any of her due process procedural or substantive rights. Any petition for the rehearing of an
order denying a petition for a writ of certiorari shall be filed within 25 days after the date of
the of the order of denial and shall comply with all the form to rule 44.2. The petition shall be
presented together with certification of counsel or of a party unrepresented by counsel.
Including the payment of $200.00 of filing fee. This petition is presented in good faith and
not for delay.

Respectfully Submitted,

Marguerite Smith, Pro-se, self-represented
10522 Maidstone Cove Drive
Jacksonville, FL 32218
(904) 609-5779

